HHS/OIG, Audit -"Effect of Staffing on Quality of Care at Nursing Facilities - ConsultAmerica Health and Rehabilitation,"(A-04-04-03028)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Effect of Staffing on Quality of Care at Nursing Facilities - ConsultAmerica Health and Rehabilitation," (A-04-04-03028)
February 5, 2004
Complete
Text of Report is available in PDF format (256 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if the nursing facility was in compliance with Federal
and State staffing laws and regulations.  While we concluded that the facility did comply with applicable laws and
regulations with respect to nursing care, we noted that the hours of direct care reported in the Nursing Home Compare website
was significantly different than the hours we computed from actual facility records.  We recommended that the facility
establish a control to confirm the validity of the hours of direct care that are input into the website.